<html>
<title> - [H.A.S.C. No. 116-18] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-18]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

      YEAR 2020 BUDGET REQUEST FOR SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                             MARCH 26, 2019
                             
                             

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
36-879               WASHINGTON : 2020 
                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
KATIE HILL, California               TRENT KELLY, Mississippi
JARED F. GOLDEN, Maine
ELAINE G. LURIA, Virginia, Vice 
    Chair
              Phil MacNaughton, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Geurts, Hon. James F., Assistant Secretary of the Navy for 
  Research, Development and Acquisition, Department of the Navy; 
  accompanied by VADM William R. Merz, USN, Deputy Chief of Naval 
  Operations for Warfare Systems (N9), Department of the Navy, 
  and LtGen David H. Berger, USMC, Commanding General, Marine 
  Corps Combat Development Command, and Deputy Commandant for 
  Combat Development and Integration, United States Marine Corps.     2

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Chairman, Subcommittee on Seapower and Projection Forces...    33
    Geurts, Hon. James F., joint with VADM William R. Merz and 
      LtGen David H. Berger......................................    37
    Wittman, Hon. Robert J., a Representative from Virginia, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gallagher................................................    65
    Mrs. Luria...................................................    65

Questions Submitted by Members Post Hearing:

    Mr. Conaway..................................................    69
    Mrs. Luria...................................................    69
    
DEPARTMENT OF THE NAVY FISCAL YEAR 2020 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                           Washington, DC, Tuesday, March 26, 2019.
    The subcommittee met, pursuant to call, at 2:44 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the subcommittee) presiding.
    Mr. Courtney. I call the meeting to order.
    Good afternoon, everyone, and welcome to the Seapower and 
Projection Forces Subcommittee hearing on the Department of 
Navy fiscal year 2020 budget request for seapower and 
projection forces.
    So, again, obviously, we are now--the fat is in the fire, 
in terms of the budget that came out a couple weeks ago. And, 
clearly, we have a compressed schedule in terms of the NDAA 
[National Defense Authorization Act] markup as well as the 
appropriations process.
    So I appreciate all the witnesses for being here today--
Under Secretary Geurts, Admiral Merz, General Berger--to, 
again, allow us to have an opportunity to have a dialogue about 
the budget.
    And members, I think, are making their way over after the 
last vote series, but we just wanted to sort of get right into 
it. So, you know, again, I have a prepared statement, but I am 
going to actually have it just entered for the record so we can 
just really get into your opening remarks and then Q&A.
    And, with that, I will yield to the ranking member.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 33.]
    Mr. Wittman. Thank you, Mr. Chairman. Thanks again for your 
leadership.
    I want to thank our witnesses for being here today. Thank 
you for the great job that you all are doing.
    And I, too, am going to put my statement into the record so 
we can get underway.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]
    Mr. Courtney. Great.
    So it looks like you have a combined opening statement. So, 
Mr. Geurts, the floor is yours.

 STATEMENT OF HON. JAMES F. GEURTS, ASSISTANT SECRETARY OF THE 
 NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION, DEPARTMENT OF 
  THE NAVY; ACCOMPANIED BY VADM WILLIAM R. MERZ, USN, DEPUTY 
CHIEF OF NAVAL OPERATIONS FOR WARFARE SYSTEMS (N9), DEPARTMENT 
   OF THE NAVY, AND LTGEN DAVID H. BERGER, USMC, COMMANDING 
 GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND, AND DEPUTY 
   COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION, UNITED 
                      STATES MARINE CORPS

    Secretary Geurts. Thank you, sir.
    Chairman Courtney, Ranking Member Wittman, distinguished 
members of the subcommittee, thanks for the opportunity to 
appear before you today to address the Department of the Navy's 
fiscal year 2020 budget request.
    Joining me here today are Vice Admiral Bill Merz, Deputy 
Chief of Naval Operations for Warfare Systems, and Lieutenant 
General Dave Berger, Deputy Commandant for Combat Development 
and Integration.
    With your permission, I intend to provide a few brief 
remarks for the three of us and then submit our formal 
statement for the record.
    Mr. Courtney. Without objection.
    Secretary Geurts. Thank you, sir.
    I would like to start by thanking this subcommittee and all 
of Congress for passing the fiscal year 2019 budget on time. 
On-time receipt of the full budget allowed us to expedite the 
delivery of lethality and readiness to our sailors and Marines 
while achieving cost savings through more efficient 
contracting. It also helped stabilize the industrial base and 
the supplier base, both of which are keys to our success.
    The 2019 budget allowed us to continue to build the naval 
force the Nation needs. This year, we will commission 12 ships, 
compared to an average of 5 ships per year over the last 20 
years. By the end of the year, we will have 296 ships in our 
battle force inventory. Not only are we building more ships, 
but their quality and capability continue to increase with each 
delivery.
    We continue to improve our acquisition and contracting 
strategies to maximize the output for every taxpayer dollar, 
including saving more than $4 billion for the construction of 
our third and fourth Ford-class carriers and over $700 million 
for our next set of DDG 51 destroyers.
    Our fiscal year 2020 request continues our commitment to 
build a 355-ship Navy, as well as the other capabilities the 
Navy and the Marine Corps require to meet the National Defense 
Strategy.
    Our request is the largest shipbuilding request in over 20 
years and funds 12 battle force ships in fiscal year 2020, 
reflecting the critical role the Navy and the Marine Corps team 
plays in the National Defense Strategy. It funds 55 battle 
force ships within the Future Year Defense Program [FYDP], 
which results in a smooth, continuous ramp to achieving 355 
ships in the year 2034, a 20-year acceleration over last year's 
plan.
    This year's shipbuilding plan continues to reinforce the 
powerful combinations of a strong, stable industrial base and 
predictable funding, as well as our initial estimates of the 
enduring cost of sustaining a larger Navy.
    Recognizing the effective and efficient sustainment of the 
fleet is absolutely critical, we have also submitted the first-
ever long-range plan for the maintenance and modernization of 
the fleet to complement the 30-year shipbuilding plan. It 
outlines the growing maintenance requirements and the many 
initiatives the Navy is executing to improve the on-time 
completion of maintenance activities. It complements the many 
other actions the Navy and the Marine Corps have taken to 
improve the overall readiness of the force.
    Finally, the Department of the Navy continues to place a 
priority on fielding the new technology and capabilities needed 
to compete and win in the future. These include a wide range of 
unmanned capabilities in the air, on the sea, and below the 
surface, as well as new capabilities enabled by directed 
energy, hypersonics, artificial intelligence, and advanced 
sensor system technologies.
    Thank you for the strong support this subcommittee has 
always provided to our sailors and Marines. And thank you for 
the opportunity to appear before you today. We look forward to 
answering your questions.
    [The joint prepared statement of Secretary Geurts, Admiral 
Merz, and General Berger can be found in the Appendix on page 
37.]
    Mr. Courtney. Thank you, Mr. Geurts. And, again, I am going 
to just have a couple questions, and then, again, we will, I am 
sure, have lots more to follow.
    One item that is in the budget, which, you know, there has 
been actually about 3 years of back-and-forth or 4 years of 
back-and-forth with this subcommittee, is the Virginia-class 
program. You know, last year, again, we put out a mark and 
there was a floor debate in terms of boosting the production to 
three Virginia class a year, and that was unsuccessful. The 
Department opposed that at the time. It was about 8 or 9 months 
ago.
    The budget that came over this year, I think a number of us 
are pleased to see that it actually included funding for a 
third submarine in the 2020 budget. And I am wondering if you 
could, again, just sort of explain the thinking behind the 
Department's position, both in terms of a strategic, you know, 
aspect as well as industrial base.
    Secretary Geurts. Certainly, sir. And I will start out, and 
I will ask Admiral Merz to perhaps jump in from a requirements 
and a warfighting concept.
    You know, Virginia continues to be our most successful 
acquisition program. As you know, we started out with an 84-
month span time on those ships. We have been able to bring that 
down to 66-month span time, as well as get to two ships a year. 
And so, you know, that has provided us some opportunities.
    Our goal is still to continue to shrink that span time. We 
have been a little bit challenged getting below the 66-month 
span time. But we have been delivering those subs kind of on 
that 66-month cycle.
    So when we took a look at it, we identified opportunities 
to add that third sub in. We are by far the shortest on 
submarines compared to any of our other battle force ones, and 
so we took, you know, a little more risk than we did last year 
by adding that into the plan.
    As you know, we funded that all in this first year, which 
means it will deliver out a little bit differently than the 
ships in the block-buy contract. But we are comfortable we can 
include that and feather it in with deliveries to try and--you 
know, our goal is to do everything we can to not get caught up 
in the bathtub that is facing us. This is one of the components 
of that strategy.
    Mr. Courtney. Okay.
    Admiral Merz. Yes, sir. The Virginia-class program--as a 
matter of fact, the entire submarine production program is also 
a great example of what happens when you walk away from your 
acquisition profiles like we did in the 1990s. So we have been 
fighting very hard to get that program back on track. And no 
matter what we do, even with a third submarine in 2020, it is 
still going to be the furthest away from its validated 
requirement for the next 20 years.
    So we have been motivated to fit that in. I think the great 
work with Secretary Geurts, with you, with the shipyard, we 
gained the confidence to invest in it. We believe it is 
executable. We know it is going to execute over a longer period 
of time, but based on the requirement gap, it was the right 
thing to do.
    Mr. Courtney. And just to touch on the requirement gap, 
again, the force structure assessment that came out at the end 
of 2016, can you just state for the record the requirement that 
was identified?
    Admiral Merz. Yes, sir. The requirement was 66 submarines 
from the force structure assessment. And that was up 13 
submarines from the prior assessment.
    Mr. Courtney. And the fleet today is roughly at around 50 
or 51. Is that right?
    Admiral Merz. Fifty-one. Yes, sir.
    Mr. Courtney. So, again, just to sort of underline the 
point that you just made and Secretary Geurts made, is that 
that sort of delta is actually the widest of any of the Navy's 
platforms within its fleet. Is that correct?
    Admiral Merz. Yes, sir. The SSNs [attack submarines] and 
the CVNs [aircraft carriers] will take the longest to reach the 
requirement.
    Mr. Courtney. Right.
    So one last question is, again, some of the reporting since 
the budget came out--and, Mr. Geurts, you sort of touched on 
this--is that the funding is a little different than in the 
block contract model that has been, you know, successful, 
certainly, you know, going back to the mid-2000s.
    So the way this funding works is, again, we are going to 
fund the full cost in this budget. Is that correct?
    Secretary Geurts. Yes, sir. Our request is for the full 
funding.
    Normally, if it was part of the block-buy, it would have 
been included with the economic order quantity and with some 
advance procurement. The challenge was, we have already set up 
that economic order quantity for the 10-ship block-buy. And so 
this one, by design, will have to be a little bit different, in 
that we won't have the benefit of the economic order quantity 
and we will fund it all together in one fiscal year.
    Mr. Courtney. So the narrative that somehow that is going 
to, you know, be not able to execute, because people are 
looking at it in the lens of it is just all going to happen in 
2020, I mean, the fact of the matter is the ship is really a 
2023 ship. Is that correct?
    Secretary Geurts. Yes, sir. If you were to compare it that 
way, again, it will be different by design, because we don't 
have the normal economic order quantity and advance 
procurement. And because of that, we put it all in one fiscal 
year.
    It will execute. I mean, the challenge for us is finding 
the right spot in the production cycle. And our sense right 
now, it will look about as a 2023 ship.
    The other thing that is important--and, last year, when we 
talked about it--is keeping in mind Columbia coming along and 
making sure, you know, as we looked at it, by loading it now, 
it gives us the most time to figure out how to use that 
efficiently as a risk-reduction element for Columbia--i.e., we 
can get some of the additional workforce trained up, get some 
more of the supplier base, and get some of the supplier builds 
out of the way before Columbia gets here.
    So we are working to put all of those together. Our 
analysis that year wasn't mature enough to commit to that. This 
year, we felt more comfortable, recognizing both the state of 
the program and the urgency of the requirement.
    Mr. Courtney. And Admiral Merz, you are comfortable, again, 
with the industrial base capacity?
    Admiral Merz. Yes, sir.
    Mr. Courtney. Great. Thank you.
    With that, I will yield to the ranking member, Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank the witnesses for joining us today.
    Secretary Geurts, I want to begin with you. A couple weeks 
ago, we were actually at Newport News Shipbuilding. We were on 
board the USS Gerald R. Ford. What an amazing ship. What 
absolutely fantastic capability. As you know, it is there for 
maintenance availability, for post-shakedown work that needs to 
be done.
    As I talked to the shipyard workers there, they had 
concerns about the timeframes regarding post-shakedown 
availability. And we know that there is work going on 
engineering systems and going on the advanced weapons 
elevators.
    So I wanted to get from your standpoint, where are we in 
relation to scheduled time for the ship to be available to the 
fleet?
    Secretary Geurts. Yes, sir. So, as you recall, we had that 
schedule as of 12-month availability, where we were going to 
both complete some nuclear propulsion work on a plant, do some 
more of the ship alts, and then finish up the elevators. Right 
now, my current estimate is that is going to be an October 
delivery, vice July, so about a 3-month delay.
    All three of those causal factors--making the adjustments 
to the nuclear power plant we noted during sea trials, fitting 
in all of the post-shakedown availability workload, and 
finishing up the elevators--they are all trending about the 
same time. And so October right now is our best estimate.
    The fleet has been notified of that. They are working that 
into their train-up cycle afterwards.
    Mr. Wittman. Okay. So you are confident that you will meet 
the October timeframe?
    Secretary Geurts. With the information I have right now, 
sir, that is where we are sitting right now.
    Mr. Wittman. Gotcha.
    Secretary Geurts. Obviously, we would have liked to have 
gotten out in July.
    Mr. Wittman. Yeah.
    Secretary Geurts. That was with our plan. I am never happy 
delivering a ship back to the fleet late.
    Mr. Wittman. Yeah.
    Secretary Geurts. And so we have all hands on deck working 
on that. But that is where I see things right now.
    Mr. Wittman. Okay. Very good.
    Vice Admiral Merz, I am going to start with you. I am just 
going to ask a series of questions. And I would just, in the 
sake of time, because I want to make sure we get to our other 
committee members, I would just ask you if you will just answer 
with a yes or no. I want to culminate with trying to get a 
little more deep dive on information.
    But I want to ask you, can you confirm that the latest 
force structure assessment requires 12 aircraft carriers?
    Admiral Merz. The latest of 2016 force structure assessment 
still is a 12-carrier requirement.
    Mr. Wittman. Okay. Can you confirm that this force 
structure requirement supports combatant commanders--or, excuse 
me, additional carriers available during potential times of 
conflict?
    Admiral Merz. So the actual--those numbers are actually 
sensitive.
    Mr. Wittman. Gotcha. Gotcha.
    Admiral Merz. So we can talk about that in a classified 
forum. But, yes, that 12-carrier requirement is based on the 
force generation model that is in place now.
    Mr. Wittman. Gotcha.
    And, finally, do you believe that the carrier today is more 
survivable than it has been in the past 70 years since we began 
to deploy aircraft carriers?
    Admiral Merz. With absolutely no doubt.
    Mr. Wittman. Gotcha.
    Secretary Geurts, does the 2030 shipbuilding plan indicate 
that we will have nine carriers in 2027?
    Secretary Geurts. Yes, sir, it does.
    Mr. Wittman. Okay. If the Navy force structure assessment 
doesn't support this reduction in aircraft carriers and that 
they are more survivable and lethal than they have been in 
history, it seems to me to be a counter as to why we are 
finding ourselves on a path to go to nine with early retirement 
of the Truman, when it seems to be running counter to what our 
combatant commanders say, what the force structure assessment 
says we need, with the lethality and capability that that 
platform provides to us.
    And why, then, would we retire the Truman 25 years early in 
relation to the demands that we see around us and with our 
adversaries building carriers at a pretty brisk pace?
    Secretary Geurts. Yes, sir. I will start on that and ask 
Admiral Merz if he wants to join in.
    When we look at it, you know, we are all in on the Ford 
carrier and moving to that carrier as fast as we can. It has 
increased survivability. It has increased capability. It will 
allow us to fly the air wing of the future. And so, you know, 
the first thing you saw us do just prior to the budget release 
was award that two-carrier buy to solidify that production 
line, get that moving.
    Then we looked at how are we going to provide--you know, 
what are our options to provide fires and compete at that kind 
of future conflict, which led to some tough choices. One of 
those was to retire that ship early in favor for looking at 
other technologies, other larger cost-imposing strategies as we 
look at the competitive landscape.
    Tough decision. We tried to do it early enough so that we 
could have a robust discussion about it, given the weight of 
that decision. And so, while it doesn't have a huge budget 
swing in the 2020 budget, it does impact the out-year budgets, 
where we are looking to transform the Navy and integrate some 
of the newer capabilities into the Navy of the future.
    Mr. Wittman. Very good.
    Admiral Merz.
    Admiral Merz. Yes, sir. So the Truman decision was not a 
warfighting decision; it was more of an investment decision.
    We know, the signals are clear, we have to move on to 
alternate investments, distributed lethality, cost-imposing 
measures. When we were directed to do the studies in the same 
NDAA 2016 that the RFSA [Ready for Sea Assessments] supported, 
it directed us to move out on future force architectures. And 
every study since then has validated the need to move on to 
these other capabilities.
    The effect of Truman will be felt in about 2027 to 2029, 
which it would have come out of the yard. So the initial 
question on force generation, if we do nothing between now and 
then, yes, it will affect the force generation model.
    The way we have structured this, the investments we are 
going after, we will continue to study it. We will continue to 
experiment with it. We elected to make this bold decision 
early. Every year counts. We could have waited. We decided that 
we didn't want to lose that year to figure out which direction 
we want to go with these alternate investments.
    So this is about distributed lethality to complement the 
force, not to replace the force.
    Mr. Wittman. Uh-huh. Do these independent studies also 
support a 12-carrier force structure?
    Admiral Merz. These independent studies supported a larger 
Navy. So, if you remember, we had RFSA plus the other 3, so 
there was some degree between roughly 350 and 400 ships of 
varying mixes. I don't recall if anyone went below 12. 
Regardless, we went with our assessment of 12 carriers, and 
that is still the requirement. And our commitment to that is 
the Ford class.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you.
    And now we will turn to Mrs. Luria, the vice chair.
    Mrs. Luria. Well, thank you.
    And I am going to continue along the same line of 
questioning about the aircraft carrier. So you did acknowledge 
that the current law requires us to have 11 operational 
aircraft carriers. What we didn't touch on is the air wing. So 
it requires us to maintain nine operational air wings through 
October 1 of 2025. And then, after that point, we should 
maintain 10.
    Is that correct, Mr. Geurts?
    Secretary Geurts. I believe so. Bill, any comment on that?
    Admiral Merz. Yes, ma'am. There are actually a couple 
legislation directions out there. One is the 9 now and then to 
have 10 by 2025 or----
    Mrs. Luria. Okay. So, I mean, I just still am really 
baffled at how the Navy can submit a budget that decommissions 
the Harry S. Truman halfway through their life cycle. And, 
moreover, the 30-year shipbuilding plan from 2025 on has no 
more than 10 operational carriers, and sometimes it only has 9.
    And so I am really confused as to your choices in funding 
in the budget, because I believe that any budget that the 
executive branch submits has to start with the things that are 
mandated by Congress to be fully funded. And it seems as 
though, you know, you are coming before Congress and this could 
be some sort of shell game, where, you know, you request to not 
fund the Truman, but you are looking for unmanned surface 
vessels?
    I mean, I don't think that the President is going to turn 
to the Secretary of Defense and say, ``Where are my unmanned 
surface vessels?'' when a conflict breaks out in the world. 
They are going to turn and ask, ``Where are my aircraft 
carriers?''
    And so we base this off of a force structure assessment 
that tells us, you know, we need the 11 carriers. And if we 
look back at what Captain Burke, the N43 [Director, Fleet 
Readiness], said at a hearing like this several years ago, he 
said, the cheapest ship we have out there is the ship we 
already have. We just have to take care of that ship, make sure 
it lasts for its full expected service life. And so that is 
step number one.
    So I just can't even comprehend the thought process that we 
are, quote/unquote, saving money by decommissioning a ship 
halfway through its life. If you look at the amortized cost of 
this ship over 25 years versus 50 years, we have really sunk a 
lot of taxpayer money into an asset that we are not going to 
fully utilize.
    So how do you explain that?
    Admiral Merz. Yes, ma'am. So, certainly, in isolation, 
divesting at 50 percent of the service life is a tough 
comprehensive investment strategy. But when you put it in the 
context of the threat factors, the evolution of the Navy, the 
way we operate as a forward-deployed Navy, the need to be more 
distributed----
    Mrs. Luria. Well, I would stop there. Operate as a forward-
deployed Navy. So we go into the OFRP [Optimized Fleet Response 
Plan], and now, instead of generating forces that are deployed 
and on station, we are generating surge capability.
    We have met with several combatant commanders recently. I 
asked CENTCOM [U.S. Central Command] if he got his required 
requested carrier presence. Although he didn't give me an exact 
number, I know it is about one-fifth of what he requests. I 
asked the commander of EUCOM [U.S. European Command] the same 
thing. He said he gets less than half of what he requests.
    So, you know, in an unclassified setting we can't get any 
more into the numbers than that, but I can tell you that I 
personally know that we are not meeting that forward-deployed 
presence. So how can you justify further reducing the number of 
carriers?
    Admiral Merz. Yes, ma'am. So we are not meeting the 
presence in a lot of ship lines. You can have the same 
discussion with the destroyers, with the submarines, with the 
aircraft carriers. So what we are compelled to do is to find 
alternate investments to improve the lethality, to distribute 
the nature in the way we operate, the survivability, the cost-
imposing effects, and if it comes to it, a more attritable 
force.
    Mrs. Luria. So do you attribute that to our choice to go to 
the OFRP, the Optimized Fleet Response Plan?
    Because, before, we were getting 6 out of roughly every 24 
months deployed. We would go to 6 out of 36 months deployed. 
That gets us 17 percent on-station time versus roughly 25 
percent on-station time. If you do the math backwards and you 
figure out how many ships we need, instead of 355, we would 
need 251 if we were on station 25 percent of the time.
    So, you know, the Navy came to Congress, they briefed this 
OFRP plan, but there was really no price tag or operational 
impact associated with that. So are you looking at whether that 
is effectively generating the forces that we need?
    Admiral Merz. Yes, ma'am. We look at that all the time.
    So the OFRP is a supply-based model based on the force 
structure that we have. The requirements are driven by the 
OPLANs [operations plans] and the actual combat operations that 
we are going to have to surge when we need them. So, you know, 
there is a seeming disconnect between the peacetime rotation of 
the forces versus what we can surge in combat, which drives the 
actual requirement.
    Mrs. Luria. So, you know, I had sat down with the CNO 
[Chief of Naval Operations] recently to have this discussion, 
and I am still very interested in and I will request again the 
analysis as to how you have come up with the 355-ship Navy as 
the appropriate size. Is it the most limiting OPLAN? Is it 
based off combatant commander requirements?
    So, you know, as part of this hearing, I would still like 
to follow up and understand how you came to that calculation.
    I yield my time.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Courtney. Thank you, Congresswoman.
    And next up is Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Numbers matters, but lethality matters more. And as we--I 
know I am telling you what you already know, because we are 
counting on you to be honest brokers when it comes to being 
forward deployed as a Navy and Marine Corps but lethal in such 
a way that, in a best-case scenario, any adversary would choose 
not to fight us because they know it would be a bad outcome for 
them.
    So, you know, having said that, you know, I have several 
questions here, but let's start with something, you know, near 
and dear to my heart. We used to call it Gator Navy and Brown 
Water Navy, and whatever we call it now, the bottom line is we 
were Marines being hauled or not hauled, that sort of thing. 
You know you are getting old when the ship you were deployed on 
to Vietnam is now a diving reef off Hawaii.
    But, anyway, having said that, General Berger, the 
President's budget does not include a request for any large-
deck amphibs. Do you think that our legacy forces can operate 
in a contested environment? Are there improvements that need to 
be made? Does the Navy have sufficient capacity to support our 
Marine Corps operations?
    General Berger. Thank you, sir.
    The two parts of that, as you outline, are capacity, the 
number, and the capability of the ships themselves. Over the 
FYDP in this budget, there are three amphibs that will be 
procured. The requirement for the Navy for the Nation remains 
38 based on the 2016 force structure assessment. Now, there is 
an ongoing force structure assessment now that I think will be 
done by the end of the year, which we will see how that plays 
out; but right now it is 38.
    And the second part of the 38 is not just the aggregate 
number but the breakdown of the types of ships, centered on the 
big-deck amphibs. The bottom line on more modern ships are, for 
us, they give us the capability that the legacy older ships--
you can't retrofit back into them. And it begins with command 
and control systems and the ability to defend the ship, and an 
offensive arm as well.
    So all of them, to a degree, you can put in the Wasps, you 
can put in the Essex, but you really need the new ships in all 
type/model/series that give us another level of capability.
    Mr. Bergman. Okay. So you need the survivability of the new 
capability the ships bring.
    General Berger. Yes, sir, we do.
    Mr. Bergman. I understand that the Marine Corps has also 
done extensive studies and analysis on the expeditionary 
advanced base operations [EABO]. This concept relies heavily on 
the ability to seize, establish, and operate on widely 
dispersed bases.
    Since a critical function for the logistics network will be 
to sustain these bases, do you feel that the CH-53 Kilo gives 
you much more capacity and capability over the legacy CH-53 
Echo or any other logistical system to support the EABO 
concept?
    General Berger. Sir, I do. I think to--and we are learning 
about expeditionary advanced base operations as we go. This is 
a large part of our exercises and experimentation. We are going 
to need every bit of vertical lift and surface connector that 
we have. Absolutely, the Kilo gives us range and payload that 
the Echo does not. And it is going to give us a level of 
reliability that you would expect in a new aircraft as well.
    Mr. Bergman. So, as you talk about that, I mean, obviously, 
you have commanded I MEF [I Marine Expeditionary Force], you 
have commanded MARFORPAC [Marine Corps Forces, Pacific], any 
additional insight on how the force struggles with the CH-53 
Echo readiness, the availability now? Because you now only have 
a force of, what, 142 53 Echos against the requirement for 200 
to 220 53 Kilos. Any thoughts on where the mismatch is in here, 
where the gap is?
    General Berger. I think last, probably, spring or early 
summertime, our aviation department looked into what got us to 
where we are and made some significant changes in the 53E reset 
program. And like all reset programs, it is not an overnight 
venture, but over a 6-month period we are seeing a climb back 
up in the 53 Echo readiness from reset program.
    And a part of that was a really brilliant move to move 
together not just the work that you would normally do in a 
depot, but after the depot you would return it back to the 
squadron, and then they would have to do more work on the work 
that the depot wasn't--it wasn't depot-level work. So we merged 
them together as part of the reset program, and it has really 
benefited us.
    Mr. Bergman. Okay. Well, thank you.
    And I see my time has expired. Thank you very much to all 
of you for your continued service.
    Mr. Courtney. Thank you, Mr. Bergman.
    Next up is Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    Thank you for being here, gentlemen.
    You know, I am pleased to see that the Navy is pursuing its 
plan for a fleet of 355 ships, but I do want to note with 
concern that the administration might not be investing 
sufficient resources in our shipyards to support an expansion, 
which will require sustained attention and support not only to 
the fleet but to fleet maintenance over a period of many years.
    I specifically want to note that the Navy 2020 shipbuilding 
plan calls for aggressive growth and service select extensions 
of current vessels. At the same time, in December, a GAO 
[Government Accountability Office] report noted that the Navy 
has been unable to complete ship and submarine maintenance on 
time, resulting in continuing scheduling delays that reduce 
time for training and operations--something we have talked 
about quite a bit already in this Congress--and also creating 
costly inefficiencies in a resource-constrained environment.
    The report elaborated that facility and equipment 
limitations at shipyards resulted in significant maintenance 
delays and that shipyards would be unable to support an 
estimated one-third of maintenance periods planned over the 
next 23 years. I think this is particularly important given 
your plan of getting to a Navy of 355 ships.
    So I wanted to, for whichever of you you feel is most 
appropriate to take the question, please describe what steps 
you feel are necessary to ensure that our shipyards are 
adequately resourced to provide the support and maintenance 
that we need for a larger fleet but also to support an increase 
in vessels undergoing service-life extensions.
    Secretary Geurts. Yeah. Thank you, sir. I will start out 
with that.
    And as you appropriately note, you know, constructing ships 
is important; maintaining them is critical and really leads to 
our warfighting capability today. And so we are tackling that, 
I would say, in two or three different lines of activity, and I 
would be happy to sit down with you to go through those in some 
more detail as time allows.
    For the public yards, we have accelerated hiring of the 
public shipyard workforce. We have done that a year early, so 
we are now at our full strength there. We are now attacking the 
infrastructure. I think the average age of our 1,300 buildings 
in the shipyard is 62 years old. Particularly problematic are 
the dry docks.
    So, in the public yards, we are doing three things: 
replacing and revitalizing the dry docks which are aging and 
failing. We are now looking at restructuring the yard for 
efficiency. We think we can get 65 percent improvement in cycle 
time just by resequencing where the work is occurring on those 
yards in terms of that. And then the third piece is 
recapitalizing the equipment. That is on the public yard.
    On the private yard, a whole host of initiatives, mostly 
for the surface side, so that we can achieve that.
    And, finally, we have documented that in the first years--
first time we have ever done a 30-year maintenance plan. And so 
it is a generation-one product. We will continue to improve 
that to ensure we are putting a focus on it.
    Mr. Golden. Thank you. Clearly, this is really important 
both for submarines and large surface combatant ships like the 
DDG 51 Arleigh Burke-class destroyer, which I know is a big 
part of your plan on how you are going to get to 355 sooner.
    You know, I just want to make note for the record, you 
know, having sat through our earlier full committee hearing and 
not having had the opportunity to ask questions--this is not 
directed to any of the three of you--that I want to reiterate 
my concerns, shared by many of my colleagues here in the House 
and the Senate, that funds that we have appropriated for our 
shipyards for that maintenance upgrades and ensure that they 
are able to do that work, expand this fleet, and do those 
service-life extensions is potentially at risk and being raided 
for purposes that have nothing to do with our naval 
capabilities and ability to deal with growing threats from 
China and Russia. Just noting my opposition and real concern 
about that and to the health of our national security as a 
result.
    I also wanted to ask--seeing in your testimony that you 
noted that the Flight III DDG 51 vessels are going to feature 
enhanced integrated air and missile defense, which is going to 
help the Navy meet the growing ballistic missile threat by 
improving radar sensitivity and enabling longer-range detection 
of increasingly complex threats.
    To the extent that you can, whoever wants to take this 
question, could you elaborate on how these systems on the 
upcoming DDG 51s aid the surface fleet in addressing the 
threats posed by improved ballistic missile capabilities with 
China and Russia?
    Admiral Merz. Yes, sir. If I may, I will kind of address 
your previous question just for a second here. You mentioned 
aggressive growth. So the SSN, third DDG, both those are 
aggressive growth options. But the most important imperative in 
any of this--and it gives me an opportunity to thank the 
committee--is get that budget approved on time. And we saw the 
magic of a detailed shipbuilding plan--long horizon, steady 
funding, and the ability to plan, not just plan shipbuilding 
but plan maintenance, the enablers, the recruiting, everything 
that goes behind it.
    As far as the DDG 51, I think you are referring to the 
Flight III DDG. From where we sit, it is the most powerful 
warship on the planet. It is going to have the best of 
everything we have. We are even expanding the facilities to 
make it an air warfare command ship. It will be dual role. I 
can't get into all the details, but it will be able to do air 
defense and ballistic missile defense at the same time. So a 
very powerful addition to the ship.
    They start entering the fleet at fiscal year 2023, and then 
DDG Flight III is all the way through. We are very much looking 
forward to getting that ship in the fleet.
    Mr. Courtney. Thank you, Mr. Golden.
    And next up is Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Vice Admiral Merz, this time last year, I believe, you 
testified before the subcommittee that the Navy would be taking 
a fresh look at the December 2016 force structure assessment 
due to changes that were coming out of the National Defense 
Strategy. And you said at the time that, quote, ``We have to 
move out aggressively as we go forward.''
    Then in September you again announced that the Navy would 
be conducting a new FSA along with an interim assessment that I 
believe is due sometime in 2019.
    Given the urgency that you rightly noted last March before 
this committee, can you walk me through what progress has 
happened on the new FSA between March and September of last 
year?
    Admiral Merz. Yes, sir. So this FSA that is coming up, it 
turns out, has a lot more moving parts than the previous FSA. 
Most notably, our shift in our employment of the force under 
this distributed maritime operations, which really kind of gets 
to one of your interest items on the distributed logistics that 
have to support that type of force, which pulls in a lot of 
capabilities into the smaller shipyards on what we are going to 
be able to do going forward. So all this has to feed back into 
the FSA.
    We had some four-star and three-star turnovers that 
influenced the OPLANs and the planning scenarios. All those 
have to be accounted for into the FSA.
    I think it is always important to remind everybody that the 
FSA tends to service two, three, or four budget cycles. That is 
typically reflective of, you know, just the ability of the 
shipbuilding industry to respond to an FSA. It typically does 
not tell us things like we don't need submarines anymore or we 
don't need DDGs or frigates. It is more of a quantity-based 
look at what we already have on how you would fight the 
conflicts today.
    We are expecting a pretty hard look at the mix of ships 
this year. We know we are heavy on large surface combatants. We 
would like to adjust that to a more appropriate mix, especially 
with the lethality we are seeing coming along with the new 
frigate. All shipyards have agreed that they can give us the 
lethality we need.
    I mentioned the distributed logistics. We also discussed, 
if you recall, last year, the medical support to our fleet, 
which is very limited by two hospital support ships when you 
start talking about a distributed maritime operation.
    All these requirements are still percolating along. So we 
expect some growth in a lot of these areas, and that will all 
be reflected on how this FSA actually views the force.
    Mr. Gallagher. So do you anticipate that when the FSA is 
signed and delivered that the fleet size requirement will 
remain constant at 355?
    Admiral Merz. I don't know if it will remain constant. I 
would find it highly unlikely to come over the lower number, 
based on the growing threat challenge.
    Mr. Gallagher. Yeah. And given the anticipated shift or 
sort of emphasizing things below the level of large surface 
combatants, would you anticipate any change to the requirement 
for small surface combatants at 52?
    Admiral Merz. I would expect that number to change.
    Mr. Gallagher. Interesting. Upward or downward? I would 
assume upward, given what you said.
    Admiral Merz. I suspect it would go up.
    Mr. Gallagher. And, General Berger, I don't want the Marine 
Corps to get off easy today. So I understand that the Marine 
Corps is developing currently a long-range direct fires 
capability that could provide the Marine Corps with a mobile 
antiship capability.
    What would that mean for the ability of the Navy and Marine 
Corps team to counter maritime threats and implement the NDS 
[National Defense Strategy], especially as it relates to the 
expeditionary advanced base concept?
    General Berger. Under the distributed maritime operations 
construct on top and the Marine operating construct on top, 
underneath that it is expeditionary advanced base operations 
the way you described it, which is a very distributed way of 
using the naval expeditionary forces.
    Heretofore, the amphibious ships were largely protected by 
surrounding ships around them. In a distributed manner, you 
want as much lethality and survivability on every craft as you 
can get. So, to your point, the ability to put longer-range, if 
not organic then perhaps containerized weapon systems on an 
amphib ship in an offensive manner just complements the rest of 
the picture. Because in a sea control and sea denial sort of 
scheme, you would like for the forces that are at expeditionary 
advanced bases not just to refuel, rearm, but also to reach out 
and pose a threat.
    Mr. Gallagher. Uh-huh. Quickly, how much are you spending 
on F-35B/C and the CH-53K versus amphibious ships?
    General Berger. I don't have that number off the top of my 
head, sir, but if I could take that for the record, I will make 
sure I get the info to you.
    Mr. Gallagher. Okay. I think the quick math looks like $94 
billion on those two short-range expensive platforms versus $76 
billion on ships. But, yeah, please take that for the record, 
and would love to follow back up with you.
    I am out of time.
    General Berger. Sure.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Courtney. Great. Thank you, Mr. Gallagher.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony and thank 
you for your service to the country.
    So I just want to express my appreciation to the Department 
and recognize the critical need for the third Virginia-class 
submarine in the fiscal year 2020 budget request.
    And with regards to Columbia class, if I could just touch 
on this, can you provide us with an update right now on the 
common missile compartment project they are working on with the 
United Kingdom [U.K.]? And how is this strategic partnership 
being leveraged? And I would like to know what best practices 
we are learning as you work with one of our closest allies.
    Secretary Geurts. Yes, sir. Obviously, our work with the 
U.K., across the board but in particular in this mission area, 
is critical and one of our most trusted and longest 
relationships. And so we continue on Columbia and with their 
associated project. I have a very close relationship. We are 
using common hardware, where we are, you know, developing the 
missile tubes, producing missile tubes, shipping them over, and 
the compartment, to help them de-risk their initial builds 
while they build up some similar capability.
    We have an absolutely close technical relationship. And as 
we work through some of the issues we have seen on early 
missile tube builds on the welds, kept them closely informed so 
they can look for the similar thing on any of their activities.
    I would also say best practice has been, you know, this 
really frank dialogue and then going after high-risk parts of a 
program like the Columbia very early. And, yes, we found some 
issues in those missile tubes. Even finding those issues and 
doing a rework, we still have at least 7 months of margin to 
schedule. And so that, I would say, best practice of finding 
the most risky elements of a program, staging those well before 
you get into actual construction is paying great dividends.
    Mr. Langevin. Thank you, Mr. Secretary.
    On another topic, I am concerned about the resilience of 
Navy and Marine Corps bases, in particular, due to the effects 
of climate change and rising sea levels. We know that--and not 
getting into the reasons why climate change is happening, but 
let's just look at the fact that it is happening and it is 
self-evident. Last year, Camp Lejeune was heavily damaged by a 
major storm. And I am concerned that the Navy and Marine Corps 
are not considering resiliency in their installation master 
plans.
    So I want to ask, you know, what are the investments that 
you are making today in order to mitigate risk that we still 
face in the short, medium, and the long term to our CONUS 
[continental United States] and OCONUS [outside continental 
United States] installations? And how are you evaluating those 
risks as they evolve?
    Secretary Geurts. Sir, maybe I will give a kind of brief 
sense of it and then turn it over to the two gentlemen here for 
the service-specific.
    But I think your strategic view of how do we build 
resiliency to climate, to cyber, to counter-UAS [unmanned 
aerial system], to all the sorts of things is absolutely 
critical, because protecting a garrison is part of protecting 
the force. It is not a luxury we can just assume, that the 
garrison will be, you know, immune to all the different types 
of threats to it, you know, weather and climate being one of 
them.
    So I would say that is something, at the Department, we are 
looking across the board, not just at the climate. But I will 
turn it over to Admiral Merz and General Berger for any 
thoughts they may have.
    Admiral Merz. Yes, sir. So I certainly agree with Admiral 
Davidson's testimony from INDOPACOM [U.S. Indo-Pacific Command] 
of climate change and the effect it is having not just on land 
but also at sea. And we are certainly seeing the effects of 
that at home.
    Unfortunately, I will tell you that most of our investment 
is probably in repair and recovery from the damage. But that 
has been the wake-up call as we recalculate our MILCON 
[military construction] investments as we go forward.
    General Berger. And, sir, I think it won't be any surprises 
for the Marine Corps either. The damage to the buildings at 
Camp Lejeune that you note, sir, were largely from the 
buildings that were 40 to 50 years old. The newer buildings, in 
the 2000s and 2010s, all fared very well. So part of it 
certainly is the location; part of it is the design of the 
buildings themselves.
    But I don't think there are any misperceptions between the 
Navy and Marine Corps about the need to address, whether it is 
MILCON or the location of a base, the effects of climate change 
and other factors. If you don't, then the risk, as you point 
out, sir, is pretty high.
    Mr. Langevin. We are just going to be throwing good money 
after bad if we are repairing bases or building new bases and 
not factoring in the changing weather patterns and seriousness 
of climate change. So that has to be a forethought and primary 
concern going forward. Again, we are going to be throwing good 
money after bad.
    So my time has expired. I have an additional question I 
will ask for the record, but thank you for your testimony.
    I yield back.
    Mr. Courtney. All right. Thank you, Mr. Langevin.
    Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, I was fascinated by the expenditure you proposed 
on the medium and large unmanned vessels. I tried to do my 
homework on this. This is a new thing for me. I do think it is 
a good idea for the Navy to do this.
    And I know before you go through the R&D [research and 
development] it is hard to know a lot about the details of it, 
but can you give me some sort of an understanding of what the 
Navy's plan would be to transition from the R&D phase to actual 
production?
    Secretary Geurts. Yes, sir. And, as you know, doing R&D and 
figuring out exactly the capabilities we need is critical.
    I would say what is a little bit different in these ships 
versus a traditional ship is, largely, I think we can leverage 
more traditional, conventional design versus having to redesign 
a whole new ship. And so the real R&D is in a lot of the guts--
the autonomy, the decision making, how are we going to command 
and control it, how we are going to do those things--and less 
about what does the hull form look like. And, quite frankly, I 
think we can build the ships at a reduced price because it 
opens up a lot more shipyards to a lot more of designs they are 
comfortable with right now.
    And so we have, as you know, a lot of activity going on. 
Our medium unmanned vessel did a transit to Pearl Harbor and 
back autonomously. We learned a lot from that. We have a lot of 
activity going on with the Special Capabilities Office. We have 
done phase-one testing on the large unmanned surface vessel.
    The really, I think, science we have to work out is the 
level of autonomy, the level of command and control, the level 
of protection we are going to need depending on the 
capabilities we put on those ships.
    As we work our way through that, I would anticipate going 
in the future--right now we have all of those loaded in R&D 
across the FYDP. My guess is we will probably in a future 
budget year transition some of that to procurement as we 
understand exactly when that cutover point is and where it 
makes the most sense. I think we are still a couple years away 
from that.
    Mr. Byrne. And I can understand that. I just wanted to try 
to get a little bit better understanding. I want to encourage 
you in this. I think this is the future, in many respects, for 
our Navy. I know there are some unknowns when you go into 
something like this, but I think spending this money through 
our R&D budget is a smart thing.
    Admiral Merz, I want to talk to you about--I think I 
understood what you were saying earlier. It looks like EPF 14 
is going to be a medical transport ship. So do you see the Navy 
going more in that direction with future production?
    Admiral Merz. Yes, sir. So when we did the--we called it 
the Common Adaptable Small Ship Study and we looked at all the 
logistics--as a matter of fact, somewhere north of 11 different 
mission sets we evaluated that would have to come online to 
support the distributed maritime operations concept, medical 
was a big piece of that.
    We have funded to EPF 13. That will be the first emergency 
medical transport. And then 14 is in the unfunded priority 
list, ranking very high, you will notice, because we consider 
that a warfighting capability, not just a medical support 
capability.
    So a preponderance of all those requirements were feeding 
back into the FSA. We know we need to get out--like I said 
earlier, the FSA doesn't really tell you what capabilities you 
need. It kind of gives the efficacy of the ones that you have 
projected forward.
    We do the actual capability studies through, you know, a 
very detailed process of analysis of alternatives, these 
requirements and evaluation teams, and we come up with a 
capability. We know we need this. How much of it we need long 
term, the FSA will inform us on that, but we have to get 
started. Very similar to the unmanned vessels that you cited 
earlier.
    I think while you were out we had the discussion about 
every study we have done has told us we need to have these 
capabilities. So we are shifting our investments, and we are 
moving out on them.
    Mr. Byrne. Good. Thank you.
    And, finally, General Berger, some of the other members of 
the committee have heard me say this before. I am not sure you 
were here when I said it. I led the HASC [House Armed Services 
Committee] CODEL [congressional delegation] out to RIMPAC [Rim 
of the Pacific Exercise] last summer. It was a great trip. We 
were supposed to go on one of our amphibs, but one of our 
amphibs had a problem, so we went on an Australian amphib. It 
was great. Loved being with the Aussies. They were great hosts. 
But I was kind of disappointed we didn't go on one of ours.
    So I just want to register my concern and echo General 
Bergman. I want to make sure we have enough amphibs to meet the 
mission requirements that we have placed upon you. And if there 
is anything we need to do to help you get to that point, please 
let me know. I would like to be supportive of that.
    General Berger. Sir, I remember seeing you out there. It 
was a pretty amazing show----
    Mr. Byrne. Yeah.
    General Berger [continuing]. And demonstration of kind of 
all the capabilities in the Pacific.
    I think to your point, sir, the capacity part of 30-A we 
discussed earlier. But one lens that we use, perhaps useful to 
look through.
    In terms of how useful are amphibs in the world we live in 
now and the world we are going into, I think you can boil it 
down into three areas. One is the steady-state operations 
around the world. That is deterrence and ability to react. 
Second, a global cost imposition strategy if we are forced to 
fight. And, third, the ability to project the force from the 
sea and sustain that force from the sea if you are told to do 
so. Nothing else does that that I have seen so far other than 
an amphibious force.
    Mr. Byrne. Thank you, gentlemen.
    I yield back.
    Mr. Courtney. Great. Thank you, Mr. Byrne.
    Next up is Mr. Cisneros.
    Mr. Cisneros. Thank you, gentlemen, for being here this 
afternoon.
    Secretary Geurts, the Navy, I believe, currently has 289 
ships, and we have a goal of getting to 355. Through testimony 
we have had in earlier weeks about manning issues on Navy 
ships, the Navy has a shortfall of 6,500 people. If we are 
going to get to 355 ships, what are we doing to get more 
sailors? Ships need sailors. How are we going to be able to man 
these ships?
    Secretary Geurts. Yeah, I will maybe start with that and 
ask Admiral Merz to chime in.
    One of the things you have noticed in the shipbuilding plan 
over the last two cycles is broadening out from more than just 
the construction of ships and starting to look at both the cost 
to maintain them and the people to man them and be efficient in 
there. And that is something we are going to have to 
continually go after. You are seeing some manning changes in 
this year's budget. We still have work to go.
    Part of the other thing Admiral Merz and I worked on very 
closely in this year's shipbuilding plan is smoothing the ramp. 
Before, it was a little bit jumpy, and that makes a hard 
manpower issue almost impossible to work, because you can't 
work the transition between platforms.
    And so we are doing all we can to be as efficient as we 
can, to take manning into account as we transition to this 355 
Navy. We still have work to go on overall manning.
    And, Bill, if you want to add anything.
    Admiral Merz. Yes, sir. Just real quickly, we are probably 
as equally proud of smoothing that ramp than the acceleration 
by 20 years, because it makes everything more executable.
    Manpower is a funny thing. You touch the spigot; you have 
to wait around a couple years to see if you got the desired 
effect. This allows you to touch the spigot less frequently 
when you have a--it literally is a continuous ramp to 355.
    Last year's shipbuilding plan highlighted a lot of 
historical examples of the damage of a boom-bust cycle of the 
shipbuilding plan. We revisited that history a little more in 
this shipbuilding plan, but we have already seen the effect of 
continuous funding over the cycle starting to naturally smooth 
out the ramps. And then with the service-life extensions, we 
are able to create the macro ramp up to 355 gradually and 
persistently. So the enabling accounts are going to be in a 
much better predictive posture to support the 355.
    Mr. Cisneros. And how exactly are we going to ramp that up? 
I mean, is it just more recruiters? Bigger bonuses?
    Admiral Merz. Sir, I would tell you and Admiral Burke would 
tell you that we have already ramped up. Now it is just staying 
on that ramp between now and the predictive approach to 355 in 
2034.
    Mr. Cisneros. Okay.
    Second question. In testimony earlier today during a full 
hearing, Secretary Shanahan mentioned the decision to retire 
the Truman early could be revisited.
    It was my understanding that retiring the Truman wasn't 
something that the Navy wanted to do. And I know from earlier 
testimony, as well, from some of the commanders that that is 
not something they want. They want carriers out there. They 
want to be able to have that show of force.
    What would it take to revisit that and to basically change 
that decision so that we keep the USS Truman?
    Secretary Geurts. Yes, sir. The Navy fully supports the 
President's budget and the plan we brought over here. And, 
again, as we talked about, some pretty hard decisions in terms 
of trading off existing capability versus pivoting to some new 
capability.
    Having said that, the real effort to buy the long-lead 
parts and all the things we need for the refueling wouldn't 
start until next year. And so we have this year to continue 
those analyses, continue the debate, and understand whether 
that technological is going to have merit in terms of that 
transition versus the capability we currently have with the 
Truman.
    Mr. Cisneros. All right.
    I yield back my time.
    Mr. Courtney. Thank you, Mr. Cisneros.
    And now up is Mr. Moulton.
    Mr. Moulton. Gentlemen, thank you very much for being here 
today.
    Admiral, I would like to ask you about the Navy FSA. 
Keeping in mind that the Navy will complete another FSA 
sometime this year, I will use the 355 number that has been 
around for the last year or so.
    Why have we not included USVs [unmanned surface vehicles] 
and UUVs [unmanned underwater vehicles] in our force structure 
analysis? In other words, why are we just looking at the 
traditional ships of the United States Navy rather than 
unmanned systems, which are clearly going to be such an 
important part of future warfare?
    Admiral Merz. Yes, sir. We discussed earlier about the 
added complexity to this next FSA, and that is one of them. We 
are going to account for these capabilities.
    The threat vectors have already told us we need to do these 
things. The FSA will give us more clarity on how many of them 
ultimately we are going to need. And it is not just the FSA. We 
have done, starting with the three directed studies by Congress 
in the authorization act of 2016, and every study since then, 
has identified these capabilities as being force enablers that 
complement the battle force.
    We have already rolled them into war games. We have done 
some limited real-world operations with them, including the 
fight to Hawaii of our unmanned surface vessel. So they are 
very much a part of the calculus now in this upcoming FSA, and 
you are going to see a requirement coming out for them.
    Mr. Moulton. So what is the--I mean, obviously, this is a 
new weapons system that is just coming online. What do you 
anticipate to be the tradeoff between unmanned ships, whether 
they be surface or underwater, and the traditional ships that 
you have in the Navy?
    Admiral Merz. Sir, one of the persistent questions are when 
are these things going to start replacing battle force ships. 
So this is where we have to be very pragmatic on our approach.
    Yes, we are moving out very aggressively on developing the 
capability. And, yes, we are probably pumping the brakes a 
little bit on when these things are actually going to replace 
ships until we get them out there, test them, and see what they 
can do. Can they get through a typhoon? Is the policy going to 
allow us to use them? Separating humans from weapons--a lot of 
things have to come in line before we start counting them as 
battle force ships.
    So right now we are looking at them as enablers. As we 
field them and use them and better insight on their true 
capability they bring, very evidence-based like----
    Mr. Moulton. That is a totally reasonable answer, and, I 
mean, I don't disagree with it in principle. But, I mean, how 
soon are the Chinese integrating these types of ships into 
their Navy?
    Admiral Merz. I can't really comment on that. That is an 
intel assessment. I know they are working on it as well. But 
whether we integrate them or use them as adjunct enablers, the 
capability is still coming online.
    Mr. Moulton. I mean, just as--you know, a RAND report on 
Chinese drones released in 2017 found that Beijing is funding 
at least 15 different university research programs into 
unmanned undersea and surface vehicles, with a particular 
emphasis on UUV projects. Russia has begun sea trials of the 
long-range UUV capable of carrying a nuclear warhead. In 
October 2016, the U.K. and France announced that they had 
awarded a $164 million contract to a group of European defense 
firms to develop a UUV for mine countermeasures.
    This year's request for small and medium UUVs is $40 
million. Explain how we are going to compete, with such an 
incredibly small investment.
    Admiral Merz. Well, this year's investment is actually 
about $450 million, and we have $3.7 billion in the FYDP. So 
this is kind of----
    Mr. Moulton. Okay. So maybe I have the wrong number. It is 
$450 million.
    Admiral Merz. This is the essence of, you know, why we are 
shifting to these investments and the diversity of these 
investments. A huge shift for us in this particular budget.
    Mr. Moulton. So if this is a huge shift, then why are we 
still fixated on this 1980s vision of a 355-ship Navy? I mean, 
why does that number even have any relevance today if some of 
these things are going to be coming on in the next few years, 
long past the lifetime of the ships that we are building to 
meet this 355 number?
    Admiral Merz. Yes, sir. So we think it is completely 
relevant. And I would probably have to get with you and walk 
you through the analysis of how we construct the FSA and how 
these capabilities will both enable and----
    Mr. Moulton. But, I mean, you would agree that using a sort 
of 1980s type of measure for the strength of the Navy is not 
really relevant if you have different capabilities today. I 
mean, it is not like we are talking about, you know, how many, 
you know, square-rigged frigates that we need in the Navy.
    Admiral Merz. I would agree if that is what we did, but we 
use a much more current assessment model and wargaming and 
experimentation model to determine the composition of the 
battle force.
    Mr. Moulton. Okay.
    Secretary Geurts. Sir, if I could just add?
    Mr. Moulton. Yes, please.
    Secretary Geurts. If I could just add, you know, I would 
say it is similar to aviation. I don't know if I view it as an 
either/or. It is going to be an either/and. And when we have 
this working right, both capabilities will complement each 
other versus----
    Mr. Moulton. No, look, I totally--I love either/and, and 
you won't meet a service chief who doesn't love either/and. But 
sometimes in budgeting you have to do either/or. And, you know, 
these tradeoffs are what we have to get to the heart of with 
this discussion.
    Secretary Geurts. Yes, sir.
    Mr. Moulton. Thank you.
    Secretary Geurts. I think you saw the Navy make that hard 
tradeoff by decommissioning the Truman early. And that was a 
hard tradeoff we made in this budget cycle.
    Mr. Moulton. Well, I would not be quick to disagree.
    Thanks.
    Mr. Courtney. Thank you, Mr. Moulton.
    So, now that we have no votes ahead of us, you can't leave. 
Sorry. And we are going to, I think, do a second round and, 
again, welcome all the subcommittee members to join in.
    I just had a couple quick follow-ons just, you know, from 
the first run-through which I just wanted to go through 
quickly, which is, again, we haven't really talked much about 
the Fast Frigate Program. I just wanted you to confirm for the 
record that program and planned contract award is proceeding on 
schedule. Is that----
    Secretary Geurts. Yes, sir. We released our draft RFP 
[request for proposal] a few months early, and we are on it or 
ahead of our schedule for the full RFP in the competition.
    Mr. Courtney. And so the RFP is sometime in this calendar 
year, 2019?
    Secretary Geurts. Yes, sir. We originally planned to draft 
the RFP in June. We released that in March. So we are taking 
all the inputs from our potential competitors, and we intend to 
put the RFP and start the competition out this summer, well 
ahead of our plan by the end of the fiscal year. That will 
position us well to make that award next year and award the 
first frigate as proposed in the 2020 budget.
    Mr. Courtney. Great. Thank you.
    And so the unfunded priorities list came over, and one item 
that sort of jumped off the page to our subcommittee was the 
funding for the Boise and Hartford avails [maintenance 
availabilities] are on the unfunded list.
    Again, you know, there has been a lot of talk about, you 
know, them being kind of in the queue for an awful long time. 
Could you just sort of explain why that is showing up on that 
list?
    Secretary Geurts. Yes, sir. And, you know, obviously, 
submarine maintenance--we have talked about the criticality of 
submarines. Submarine maintenance is something we are really 
working on hard. We do not have all the capacity in the public 
yards or the private yards to get after that, so it is not--
again, not an either/or. We need both of those working well 
against this.
    We have seen improvement on the public yard in terms of 
reducing idle time and buying back maintenance stays. Right 
now, we have two--actually, now, three subs that are in idle 
time, awaiting to get in, Boise one of them.
    The challenge with Boise has been delays we have seen with 
the other submarines in the private yard maintenance. And, 
quite frankly, we just can't get Boise in until we get the 
current submarines in the docks at Newport News out.
    That slipped Boise into 2020. We had planned to do it this 
year. That slipped it into 2020. That occurred after the 2020 
budget was put together. That is why it showed up on the 
unfunded list.
    We have a burn-down plan, in terms of months of idle time, 
that we are driving to reduce that backlog by 2023 so we have 
no ships with any idle time. That is our goal. We have a burn-
down plan to get there.
    We are better than we were, but we are not where we need to 
be yet, in terms of having ships with idle time--i.e., not 
certified, waiting to get into maintenance. We have a lot of 
improvement on maintenance delays on the back end but still 
have some work to go there, particularly with our private yard 
partners.
    Mr. Courtney. And the Hartford? The USS Hartford also was 
on that list.
    Secretary Geurts. Yes, sir. And, again, that is more of a 
shortfall of--we have talked about having that one, again, go 
to the private yards. Our original plan was not to have that in 
the private yards. And so, similarly, unfortunately, those are 
private yard--if we don't have it funded properly when we do 
the budget year as a private yard avail, then that causes us to 
have an unfunded requirement that we have to deal with.
    Mr. Courtney. Okay. Thank you.
    And, lastly, you know, regarding the funding for the third 
sub, which we discussed earlier, I mean, if those funds are 
deferred as a part of any final budget result, you know, does 
that sort of put that at risk in terms of, again, trying to 
find that sweet spot in 2023 that you described earlier?
    Secretary Geurts. Yes, sir. I mean, this is somewhat of a 
unique time, because we can fold it in. As we get later in the 
2020s, you start to run up against Columbia, causing problems 
as we grow to Columbia.
    And if I can go maybe circle back to the other issue, we 
have seen some overruns on the private yard maintenance. Some 
of the dollar adjustments you see in Boise was we had to slip 
the availability. Some of the lesser dollars were more that we 
have had overruns in the current availability, which are 
slipping into 2020.
    Mr. Courtney. Right. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Lieutenant General Berger, I wanted to touch base with you 
on some issues involving our amphibious fleet. And thanks for 
the great work you are doing there at Marine Corps Combat 
Development and Integration. I know lots of challenges, looking 
what the future force will be and what the needs are there.
    I want to look at where we are today. We are at 33 ships 
going into 2020, as far as the components of amphibious ships 
within the fleet. The requirement is at 38.
    If you take a little bit deeper look under the hood, you 
heard Representative Byrne's comments about one of our 
amphibious ships not being available, so the issues of 
maintenance and the readiness state of our amphibious ships 
also becomes an issue.
    If you look at a 30-year shipbuilding plan, you see no 
large-deck amphibs there, as far as time-wise, in order to meet 
that component of the requirement and where we would need to 
be. And this year's budget request, we see no amphibious ship 
request, no amphibious connectors.
    So there is some concern about, you know, where are we 
going to be with the necessary capability within the Navy for 
our Marine Corps operations. And I wanted to get your idea and 
your best professional military judgment.
    Do you believe the current track will impact the Marine 
Corps' capability of doing amphibious expeditionary operations 
in a contested environment?
    That, I think, is going to be a significant capability that 
is necessary there in the future no matter what scenario you 
look at, manned versus unmanned. I know that you all look at 
all these different scenarios.
    But I wanted to get your best professional military 
judgment about where we are on the current track with the total 
composition of the amphibious fleet, the composition of large-
deck amphib, and the composition of what you believe you need 
to prosecute the efforts that you will undertake if we find 
ourselves having to do amphibious operations in a contested 
environment.
    General Berger. Thanks, sir.
    The impact on the industrial base, I will ask if Mr. Geurts 
has any comments there.
    On the operational side, which was the point of your 
question, under the hood, as you described, sir, under the 38 
is 12 big-decks, then 13, and then 13.
    And that type/model/series, that breakout is based on the 
2016 force structure assessment. And I don't know how the 2019 
will look. It could go north also, because 2016 was before the 
National Defense Strategy, before the Defense Planning 
Guidance, and before the National Military Strategy.
    It was frustrating at Pearl Harbor watching that ship be 
pierside when all the other countries pull out with their 
ships. And that is a very capable ship. It was just really 
frustrating. I know the Congressman was frustrated when he saw 
it happen also.
    But, frankly, sir, part of that is our fault. Part of that 
is, when we rode the force hard and deferred maintenance and 
did that again and again, it didn't just affect the condition 
of the ships as you hit that; it also sent messages to the 
industrial base where we were all over the map in terms of our 
maintenance.
    So just like our cars, if we don't change the oil on time, 
we are going to pay a bigger price later. We have to do them on 
time. We cannot defer maintenance. We took risk in that 
consciously, deliberately, but now we cannot afford to do that.
    Right now, based on the requirement, we have got to have 
12, 13, and 13. And they have got to be ready to go, with the 
right systems on board.
    Mr. Wittman. Very good.
    Let me ask you to elaborate a little bit. Of course, you 
talk about how much risk is accepted. If we found ourselves 
today having to operate doing amphibious operations in a 
contested environment, would the Marine Corps be capable of 
prosecuting that fight? And if so, how much risk are we taking 
on?
    Because you talk about the capabilities that do get limited 
by maintenance availabilities, the ships that are on call, 
available to go tonight.
    General Berger. This morning, I looked at the availability 
of the amphibs, as I am sure other folks do too. This morning, 
I think it was 19, perhaps, out of 32 that were ready to go. I 
think over time that will climb, just like aviation does, as we 
reset the force that we--the maintenance that we deferred for a 
decade and a half.
    But the risk--probably two parts, real quickly, sir. One 
is, the way we think we will need to fight--and we are talking 
expeditionary advanced base operations and distributed maritime 
operations--that is a vision for where we will need to go and 
compete and win. The force we have this afternoon, while we are 
sitting in here, will not do that to the degree we need it to.
    So the risk, to your point, operationally, tactically, it 
takes you longer. You don't have the capabilities that you need 
for the commander to pull off the missions in the way that he 
wants to do it, so his choices are constrained. And, lastly, 
the reliability. When you need the availability of your ships, 
you need to know what you have.
    Mr. Wittman. Yeah. Thank you.
    I wanted to thank you, too, for the great job you are doing 
there at MCCDC [Marine Corps Combat Development Command] and 
also for your family's legacy of service, with your dad, who we 
all know well, also a Marine. So thank you so much for your 
family's legacy of service.
    Secretary Geurts, I just want to circle the square here 
with all that we have heard. It is great to talk about 355 
ships, building new ships. And we even talk about the manning 
of those ships, having sailors. But one of the things, too, 
that is critical, the Navy has just come out with this 30-year 
ship maintenance program.
    And I think, as we have seen this theme come up, with not 
doing the RCOH, the refueling complex overhaul, on Truman, we 
see the delays in maintenance on amphibs, we see what is 
happening with the Boise, who is going to be tied up at the 
pier for another year, we see the demand signal for subs, I 
want to make sure that at the top of the list for the Navy is 
that sustainment element of making sure that we are not 
extending these maintenance availabilities, that maintenance 
availabilities are kept.
    The 30-year ship maintenance plan, I would argue, becomes 
as important, if not more important--you are never going to get 
to 355 if we don't maintain the ships that we have.
    So I don't expect a comment back, but I just want to 
emphasize how extraordinarily important that is. You know, it 
is nice to talk about building new. It doesn't make the 
headlines to talk about maintaining what we have. But if we are 
going to have the capability necessary to counter our 
adversaries--you have heard this theme among every class of 
ship today--we don't get anywhere to where we need to be, 
whether it is requirement in different ship classes or the 
overall requirement, we do not get there if we do not really 
ramp up our efforts on the ship maintenance side and make sure, 
too, that we look at everybody, the public yards and the 
private yards, as partners in that effort. Seeing some things 
develop into adversarial relationships have not been good for 
where we find ourselves today.
    So I urge you to make sure that that is at as an important 
a level as shipbuilding and the manning components of what we 
have talked about today.
    Secretary Geurts. Yes, sir. It is actually the number one 
piece on my job right now.
    As you say, we still have work to go on new construction. 
We have a lot of work to go on this sustainment, getting at 
affordable, getting at reliable, and getting at credible, so 
fleet commanders have confidence that we will get ships in and 
out when we say we are going to get them in and out, so that 
they can go plan operations and be ready to go. It has my 
number one attention.
    The committee's adding sustainability to my job jar helped 
emphasize your point greatly. And I take that very seriously.
    Mr. Wittman. Right. In on time, out on time. Very good.
    Thank you, Mr. Chairman.
    Admiral Merz. Sir, if I may----
    Mr. Wittman. Yes, please.
    Admiral Merz [continuing]. Just kind of reinforce my Marine 
brother at the end of the table here on Navy's commitment, as 
well, to the amphib fleet.
    We were very motivated to accelerate the LHA [large-deck 
amphibious assault ship] for a lot of reasons, notwithstanding 
that warfighting is number one, but also just the program on 
where that ship is going to be piling up on other procurement 
programs.
    But the sustainment piece is big. I mean, all three of us 
here, it drives our day. If you recall, the committee directed 
us to comment on sustainment in this year's shipbuilding plan, 
so we added an appendix to talk about the challenge of not just 
today for a 300-ship Navy but what is it going to look like for 
a 355-ship Navy.
    So we are with you 100 percent on that and the maintenance 
plan, which is the partner in that sustainment plan as we are 
going forward.
    Mr. Wittman. Very good. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you, Mr. Wittman.
    Congresswoman Hill.
    Ms. Hill. Hello, and thank you. My brother is a future 
sailor who is going off to BUD/S [Basic Underwater Demolition/
SEAL] imminently. So thank you for your service, and I look 
forward to being part of the Navy family.
    I understand that the average age of the sealift fleet is 
very old and it is not a large fleet. What investments do we to 
need to make in order to make sure that our warfighters can 
respond on time to a large-scale hypothetical crisis situation 
in either the Korean Peninsula or the Baltic States?
    Secretary Geurts. Yes, ma'am. I will start out with that, 
and, again, either of my partners can jump in from a 
warfighting capability.
    So that is absolutely critical and, quite frankly, not 
something we had paid as much attention to as we needed to in 
the past, both keeping our current Ready Reserve Fleet modern 
and ready to go as well as thinking about the challenges ahead.
    For the current fleet, we are looking at kind of a three-
prong attack, using the authorities that Congress has given us 
to procure some used ships as kind of an immediate stopgap. We 
have one programmed in 2021 and then another one in 2022. And 
then looking at a lot of service-life extensions to extend 
wherever we can the service life. And then, finally, a new 
procurement towards the end of the budget year.
    That is kind of on the traditional side. I think maybe 
Admiral Merz can talk about some of the nontraditional 
logistics, kind of the distributed piece, because we not only 
have to fix the long-haul big kind of moving the Navy and the 
Marine Corps and the Army, quite frankly, around; it is also 
kind of the tactical logistics in a very distributed manner 
that is going to be a challenge.
    Admiral Merz. Yes, ma'am. It turns out the actual lift 
portion, the requirement is fairly stable. We just have to 
recapitalize that fleet. It is literally decaying out from 
underneath us. So, partnering with Secretary Geurts, we are 
very committed to that three-pronged approach.
    Where the requirement looks to be growing is, when you are 
in a peer competition and you are a forward-deployed Navy, the 
ability to push these logistics to the fighting force while 
they are fighting is an area that we are looking at very 
closely. And it is really just that distributed, lighter fast 
force that we are going to see likely a requirement growth.
    So, across the board, as we say, in the off season, this 
has captured a lot of our attention to study our logistics, 
because it is the sustaining factor for a forward-operating 
Navy.
    Ms. Hill. Thank you.
    I yield back.
    Mr. Courtney. Great. Thank you.
    Well, Rob, last call?
    Jared, you are all set?
    Okay. Thank you.
    So thank you all for being here.
    You know, one comment I wanted to make regarding Mr. 
Cisneros' question regarding the manning, and it sort of may be 
relevant to Congresswoman Hill. During the break, I was out at 
Great Lakes Naval Training Center and, you know, saw the work 
that is being done there about, you know, creating the sailors 
and officers that we need to man a larger Navy. And Admiral 
Bernacchi is doing just an outstanding job. The, you know, 
quality and enthusiasm was just--it was unbelievable, just sort 
of seeing what is going--and the size of what is going on 
there.
    So, you know, to your point, Admiral Merz, that, you know, 
really, the Navy is very much focused in terms of that whole 
issue of manpower. It is real, I mean, and certainly, you know, 
I had a chance to get a glimpse of it.
    Anyway, well, thank you all for your testimony here today. 
I am sure there will be some followup questions as we get 
closer to the markup.
    And, with that, I will close the hearing.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 26, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 26, 2019

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MR. GALLAGHER

    General Berger. In the FY20 FYDP the Marine Corps plans to invest 
$20.5B on F35 procurement and $11.5B on CH-53K procurement for a 
planned five year investment of $32B in these two modern aviation 
platforms. In the FY20 FYDP the Navy plans to invest $5.35B in 
amphibious warfare ships to procure one LPD Flight II and one LHA. The 
nation benefits from both aviation platforms in question. The F35 is a 
5th Generation aircraft combining stealth, precision weapons and multi-
spectral sensors with the expeditionary responsiveness of a Short Take-
off and Vertical Landing (STOVL) fighter-attack platform. The CH-53K is 
the most capable heavy lift cargo helicopter ever built with range, 
speed and lift capacity to greatly enhance MAGTF vertical maneuver. The 
new amphibious warfare ships in production will serve our fleet for 
forty years or more. When postured forward as part of an Amphibious 
Ready Group/Marine Expeditionary Unit (ARG/MEU) these platforms enable 
sailors and Marines to carry out a broad spectrum of missions that 
assure allies and partners while serving as a credible sea based 
deterrent to aggressive threats. To face the challenges outlined in the 
National Defense Strategy the Navy and Marine Corps team must invest in 
modern aviation capability and procure modern amphibious warfare ships- 
coupled with the other components of the expeditionary warfare team 
they are the first line in our strategy to defend the forward edge of 
freedom.   [See page 14.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. LURIA
    Admiral Merz. The 2016 Force Structure Assessment (FSA) began by 
collecting the Combatant Commander (CCDR) demands for Naval forces from 
the Global Force Management (GFM) process. Then, using current/
projected fleet architecture (i.e.--where ships are homeported both 
within the U.S. and overseas, the employment cycle for each type of 
ship), the fleet size required to meet all these demands was 
calculated--653 ships. From this point, the FSA became a risk 
assessment process where CCDR demands were categorized according to the 
risk associated by not conducting certain missions. The process--
informed by strategic guidance--started by taking risk in the provision 
of forces in theaters with minimal or low risk of military conflict, 
and progressively taking risk by providing fewer forces for missions in 
theaters at higher risk of experiencing Major Combat Operations. The 
warfighting risk was based on campaign analysis of OSD-approved Defense 
Planning Scenarios and consistent with National, Defense and Navy 
strategic and planning guidance. Future years Defense Planning 
Scenarios, vice OPLANs, are used because the FSA must look as far into 
the future as practicable to afford the defense industrial base the 
time to deliver the right mix of capacity and capability for the Navy 
to stay ahead of the continuously evolving threats. Using OPLANs, which 
focus on existing and near-term forces and threats, would cause us to 
continually react to changes in the threats and, because it takes years 
to implement any required changes to force structure, result in Navy 
constantly falling behind potential adversaries. Ultimately, Navy 
leadership determined that, based on the National and Defense 
strategies versus the growing capacity, capability and re-emergence of 
threats in the future (post-2030), 355 battle force ships is sufficient 
to achieve national tasking and objectives at acceptable levels of 
risk. A more detailed discussion of the analysis supporting the 355 
ship Navy would require a classified forum.   [See page 9.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. What is the Navy doing to resolve the lack of carrier 
strike group anti-submarine protection due to the Ship Surface Torpedo 
Defense (SSTD) program being cancelled, and the reliability issues that 
the primary sensor to detect enemy submarines suffers from? Who within 
the Navy is taking ownership and leading the effort to remedy this gap? 
What other options or technologies is the Navy exploring to bolster ASW 
capabilities and protect our CSGs, including those in use by our allied 
partner navies? What is the cost for upgrading our current ASW sensor 
platform to ensure its reliable function?
    Secretary Geurts and Admiral Merz. The Navy has not cancelled the 
Surface Ship Torpedo Defense (SSTD) program. The SSTD program consists 
of three major systems: Acoustic Device Countermeasures (ADC), AN/SLQ-
25 NIXIE towed acoustic countermeasures, and the Anti-Torpedo Torpedo 
Defense System (ATTDS) hard-kill counter-torpedo and detection system. 
A decision to sundown ATTDS was made in FY 2019 due to performance 
issues, false alarm rates, and limited added value in context with the 
demonstrated effectiveness of existing and evolving Anti-Submarine 
Warfare (ASW) and Theater ASW capabilities. The AN/SLQ-25 NIXIE and 
ADCs remain in use onboard surface platforms across the Carrier Strike 
Group, including aircraft carriers, for anti-submarine protection. In 
addition to SSTD portfolio investments, the Navy is heavily invested in 
layered ASW efforts such as Virginia class submarines, AN/SQQ-89A(V)15 
surface ship ASW combat systems, P-8 maritime patrol aircraft, and 
advanced torpedoes, and does not rely on a single sensor for enemy 
submarine detection. The Navy's ASW strategy, led by the CNO's Director 
for Undersea Warfare (N97) and supported by Director, Surface Warfare 
(N96), is to establish an offensive posture using long range detection, 
prosecution, and engagement in order to keep threats outside their 
engagement zone. Failing an offensive posture, close-in defense is 
provided by the combination of ASW defensive platforms and the speed 
and maneuver of aircraft carriers and other high-value units. The Navy 
regularly evaluates domestic and allied technologies to identify 
potential evolutionary torpedo defense capability improvements. Ongoing 
Harvest ATTDS studies will help Navy identify opportunities to 
incorporate algorithms developed with ATTDS into other Navy sensors.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. LURIA
    Mrs. Luria. Your budget request is $9.5B higher than last year. 
Does your budget request generate additional deployed presence? Has the 
presence generated under the OFRP model been adequate for combatant 
commander's needs? In recent hearings, CENTCOM reported his carrier 
presence was considerably less than requested, and I happen to know it 
was 1/5th of requested and EUCOM was less than half. Are the combatant 
commander's request unreasonable or just not able to be met with the 
OFRP?
    Secretary Geurts. The presence generated by the OFRP model is 
sufficient to meet the demand adjudicated by the Joint Staff. For 
Fiscal Year 2019, Navy is expected to meet 42 percent of COCOM demand. 
In recent years through OFRP, Navy's ability to meet COCOM demand has 
fluctuated between 40 percent and 45 percent of their requests for 
naval forces.
    Mrs. Luria. Under the Optimized Fleet Response Plan, the Navy's 
goal was to provide more of push model than pull model on presence 
generation. As part of that, the Navy would be able to generate more 
ships in the sustainment phase for a longer period of time. Does your 
budget fully fund the sustainment phase to allow all ships, submarines 
and aircraft to maintain a C-2 rating during this phase?
    Secretary Geurts. The Navy readiness accounts for ship operations 
($5.6 billion), ship depot maintenance ($10.4 billion), flying hour 
program ($5.7 billion) and air depot maintenance ($1.3 billion) are 
funded and are focused on increasing operational availability of our 
ships, submarines and aircraft and is expected to support the 
sustainment phase of the Optimized Fleet Response Plan. In order to 
reconstitute private submarine repair capability and to recover the 
deferred maintenance backlog created in FY 2019, the Navy's unfunded 
priorities list includes $814 million for ship depot maintenance--$653 
million to move SSN maintenance to private shipyards due to public 
shipyard capacity constraints and $110 million to recover deferred 
maintenance backlog for surface ships. The remainder is for Naval 
Shipyard/TYCOM material and RMC overhead. The Navy is working closely 
with DOD on readiness and will continue to evaluate mitigation 
strategies for ship depot maintenance. An above threshold reprogramming 
may be one solution.
    Mrs. Luria. Does your budget fully fund a carrier strike group 
model of 2+3, meaning two deployed and three surge capable for the 
entire fiscal year?
    Secretary Geurts. No, the Navy is not able to sustain 2+3 Carrier 
Strike Groups (CSG) in FY2020. Sustaining 2+3 CSG readiness depends on 
several factors. While funding is one element, 2+3 CSG requires 
adequate force structure as well as recovering readiness in personnel, 
equipment, supply, training, ordnance, networks and installations. The 
Navy is continuing aggressive efforts to recover readiness shortfalls 
accrued from over a decade of wartime operational tempo, fiscal 
constraints, and budget uncertainty. Readiness recovery requires 
significant funding, but also time and stability. The FY2020 budget 
funds the major readiness accounts to executable capacity, with 
additional investments and efforts to increase future capacity and 
improve performance and efficiency. Navy's current CSG readiness is 
also limited by available platforms. To address this limitation, the 
FY2020 budget balances investments in readiness, capacity and 
capability to grow a bigger, better and more ready Navy the Nation 
Needs. The Navy is also implementing the President's recent decision to 
restore the refueling and complex overhaul (RCOH) for CVN 75 and retain 
the carrier and air wing.

                                  <all>
</pre></body></html>
